audit report



Return to the USDOJ/OIG Home Page



Universal Hiring Program Grant for the Town of Glenville, New York, Police Department
GR-70-98-006
April 1998 
Office of the Inspector General

AUDIT RESULTS
We have audited the Community Oriented Policing Services (COPS) Universal Hiring Program (UHP) grant awarded to the Town of Glenville, New York, Police Department (Glenville).  This grant, Grant Number 96UMWX0984, was for three full-time officers for the period from December 1, 1995 through November 30, 1998.  We performed this limited scope audit in response to a request from COPS expressing concerns that Glenville was not conforming with certain grant terms and conditions.

Glenville conformed with grant conditions in that the Town:

maintained the number of budgeted Town-funded sworn officer positions and the number of actual Town-funded officers that it had when it received the grant, and

	requested reimbursement only when it did not have any vacant Town-funded sworn-officer positions.

However, Glenville requested reimbursement for unallowable salary costs and fringe benefits at rates greater than the Office of Justice Programs (OJP) approved in the financial clearance memorandum it sent Glenville.

As a result of the improper reimbursement requests, we question $3,614 that Glenville has received as reimbursement.